HHS/OIG, Audit -"Review of Medicaid and Ancillary Claims to Medicaid for Patients Between the Ages of 21 to 64 in New Jersey's State Operated Institutions for Mental Diseases,"(A-02-01-01008)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid and Ancillary Claims to Medicaid for Patients Between the Ages of 21 to 64 in New Jersey's State
Operated Institutions for Mental Diseases," (A-02-01-01008)
July 5, 2002
Complete
Text of Report is available in PDF format (623 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that improvements were needed in controls established by the State to preclude claiming Federal
financial participation (FFP) under the Medicaid program for medical and ancillary services provided to 21 to 64 year old
residents of State operated institutions for mental diseases (IMDs).  Although it was State policy not to claim FFP
for 21 to 64 year old residents of IMDs who receive medical services provided outside of the psychiatric hospitals, we
found that for the period July 1, 1997 through June 30, 2001, the State improperly claimed at least $331,709 of FFP under
the Medicaid program for medical and ancillary services.  We recommended that the State:  (1) refund $331,709
to the Federal Government; (2) identify and return the improper FFP claimed subsequent to June 30, 2001; and (3) strengthen
procedures to ensure that medical and ancillary services provided to 21 to 64 year old residents of IMDs are not claimed
for FFP.  State officials agreed with all of our recommendations.